       We interviewed members of the Human Resources Branch to determine policies and
procedures regarding time and attendance for Credit Union activities. We interviewed the 10
employees who serve on the Credit Union’s Board of Directors, Credit Committee, and
Supervisory Committee, and their respective timekeepers, to determine how time spent on Credit
Union activities is approved and documented. We compared time and attendance records for
employees who serve on the Credit Union’s Board of Directors and Supervisory Committee to
documentation to determine whether time spent on Credit Union activities was recorded in the
Federal Payroll/Personnel System (FPPS).

        We conducted this review from February to April 2008. This review was done in
accordance with the Quality Standards for Inspections issued by the President's Council on
Integrity and Efficiency.


BACKGROUND

       In 1934, President Roosevelt signed the Federal Credit Union Act into law authorizing
the formation of Federally chartered credit unions in all states. The purpose of the Federal Credit
Union Act was to make credit available and promote thrift through a national system of
nonprofit, cooperative credit unions. A credit union is a member-owned, not-for-profit,
cooperative financial institution. Federal credit unions are chartered by the National Credit
Union Administration and member accounts are insured by the National Credit Union Share
Insurance Fund. There are 5,036 Federal credit unions that hold $418 billion in assets.

       The Federal Credit Union Act states that an agency may allot space to a credit union
without charge for rent or services if at least 95 percent of the membership of the credit union to
be served by the allotment of space is composed of persons who either are presently Federal
employees or were Federal employees at the time of admission into the credit union and
members of their families. Federal agencies may provide without charge to a Federal credit
union services such as lighting, heating, cooling, electricity, office machines and equipment,
telephone service, and security systems.

        The Credit Union, located in the Franklin Court Building in Washington, DC, was
chartered in 1938. As of November 2007, the Credit Union had 3,415 members with over $14
million in assets. Membership is open to several different groups, including NLRB employees
and other individuals who have no association with the Federal government. Some of the
services available to members include checking and savings accounts, holiday club accounts, and
a variety of loans.




                                                 2
RESULTS

Rent and Services

        We estimated that the Agency spent $88,778 for rent and other services in support of the
Credit Union in calendar year 2007. The costs incurred during calendar year 2007 are shown in
the table below.

                    Support                                   Estimated Cost
                    Rent                                              $84,318
                    Telephone Service Charges                          $3,138
                    Office Supplies                                      $951
                    NLRB Contractor Staff Credentials                    $205
                    Long Distance Charges                                $112
                    Copy Requests                                         $36
                    Information Technology Security                       $18
                    Training
                    TOTAL                                               $88,778

        The Agency also provided older computer equipment that was no longer being used by
Agency employees, help desk support for Agency-owned equipment, e-mail accounts, Internet
service, network access for file storage and retrieval, and the distribution of Credit Union
member statements to NLRB employees. Although the NLRB did not incur additional costs for
this support, it did result in savings to the Credit Union’s operations.

Support

       The Federal Credit Union Act states that an agency may allot space to a credit union
without charge for rent or services if at least 95 percent of the membership of the credit union to
be served by the allotment of space is composed of persons who either are presently Federal
employees or were Federal employees at the time of admission into the credit union and
members of their families.

        An appropriation can be applied only to objects for which the appropriation was made or
are otherwise provided by law. Although the Credit Union membership is not limited to
individuals with Federal employee status or association, the Agency has not requested and the
Credit Union has not provided documentation to demonstrate that the Credit Union meets the
statutory requirement for receiving support from the Agency. Under these circumstances, the
Agency cannot determine whether its appropriation can be applied to the expenses associated
with providing support to the Credit Union.




                                                 3
Time and Attendance

Time Recorded

        GAO guidance states that controls over time and attendance information should provide
reasonable assurance that such information reflects actual work performed and leave taken or
other absences during authorized work hours and periods. The Agency implemented controls
over time and attendance through APPM Chapter PER-10, Leave and Attendance. We were
unable to find any specific guidance that was issued to timekeepers or supervisors on the use of
official time for Credit Union activities.

        The employees who volunteer for Credit Union activities and their supervisors are not
using the Agency’s controls for recording of time and attendance. We estimated that the six
employees who served on the Credit Union’s Board of Directors and Supervisory Committee
utilized over 48 hours of official time in calendar year 2007 for Credit Union meetings that was
not properly recorded in FPPS. This occurred because the employees who served on the Board
or a committee used official time without being required to request annual leave or being granted
administrative leave. Although employees stated that they used the lunch period for the
meetings, many of the meetings exceeded the lunch period by an hour or more, and as such
should have been recorded as a period of either annual leave, administrative leave, or leave
without pay.

Leave Administration

        APPM Chapter PER-10, Leave and Attendance, provides that leave shall be administered
on a uniform and equitable basis within the scope of applicable laws and regulations. Leave
related to Credit Union training was not administered on a uniform and equitable basis. Three
NLRB employees who served on the Credit Union’s Board of Directors or Supervisory
Committee attended Credit Union related training in 2007. Two employees utilized 24 and 40
hours, respectively, of administrative leave to attend training, while another employee utilized 40
hours of annual leave.

Credentials

        Ten NLRB identification cards that purport to be contractual staff credentials were issued
to Credit Union employees and volunteers. According to the Security Branch Chief, Credit
Union employees and volunteers were issued credentials because they occasionally conduct
business in NLRB space. Providing Credit Union employees and volunteers with credentials
compromises security because they are equivalent to a Federal identification that could
potentially provide access to other Federal buildings. Other non-Federal entities located in the
Franklin Court Building have been issued building passes, not Federal credentials, that allow
access to the upper floors of the Headquarters building.




                                                4
SUGGESTIONS

We suggest that the Director of Administration:


   1. Formalize the Agency’s relationship with the Credit Union through some form of an
      agreement that requires the Credit Union to document its membership qualifications and
      addresses the support to be provided by the Agency. Such an agreement should provide
      the Agency with the flexibility to not provide support.

   2. Before providing additional support to the Credit Union, ensure that the Credit Union
      meets the minimum membership requirements under the Federal Credit Union Act.

   3. Issue guidance to NLRB supervisors, timekeepers, and employees who are Credit Union
      volunteers regarding the use of official time for Credit Union activities.

   4. Replace NLRB credentials issued to Credit Union employees and volunteers with
      building passes.




                                                  5
